Office of Inspector General
     Audit Report


FHWA HAS NOT FULLY IMPLEMENTED
ALL MAP-21 BRIDGE PROVISIONS AND
  PRIOR OIG RECOMMENDATIONS
      Federal Highway Administration


       Report Number: MH-2014-089
       Date Issued: August 21, 2014
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FHWA Has Not Fully Implemented                                             Date:    August 21, 2014
           All MAP-21 Bridge Provisions and Prior OIG
           Recommendations
           Federal Highway Administration
           Report Number MH-2014-089

  From:    Thomas E. Yatsco                                                                Reply to
                                                                                           Attn. of:   JA-30
           Assistant Inspector General
            for Surface Transportation Audits

    To:    Federal Highway Administrator

           More than 600,000 highway bridges on the Nation’s public roads carry, on
           average, over 4.6 billion vehicles per day. In 2013, over 147,000 of these bridges
           were deficient, carrying, on average, more than 1.2 billion vehicles per day. 1 The
           May 2013 collapse of a portion of the Interstate 5 Skagit River Bridge in
           Washington State brought renewed attention to the safety and conditions of U.S.
           bridges. The Federal Highway Administration (FHWA) is responsible for
           establishing and overseeing bridge safety requirements and administering Federal
           funds for highway bridges.

           Since 2006, we have issued 3 reports with 16 recommendations for FHWA to
           improve oversight of States’ bridge programs. 2 Our initial report in 2006 described
           States’ errors in calculating bridge load ratings and in posting maximum weight
           limits and recommended that FHWA develop a data-driven, risk-based approach
           to bridge oversight. Subsequently, we reported that FHWA made limited progress
           in implementing this oversight approach and that it lacked sufficient data to

           1
              Deficient bridges are classified as either structurally deficient or functionally obsolete. While not necessarily
           considered unsafe, a structurally deficient bridge generally has major deterioration, cracks, or other deficiencies in
           structural components. These bridges typically require significant repair, and eventually rehabilitation or replacement.
           Functionally obsolete bridges may have inadequate lane widths, shoulder widths, vertical clearances, or other
           geometric deficiencies relative to their current usage.
           2
             OIG Report Number MH-2006-043, “Audit of Oversight of Load Ratings and Postings on Structurally Deficient
           Bridges on the National Highway System,” Mar. 21, 2006; OIG Report Number MH-2009-013, “National Bridge
           Inspection Program: Assessment of FHWA's Implementation of Data-Driven, Risk-Based Oversight.” Jan. 12, 2009;
           and OIG Report Number MH-2010-039, “Assessment of FHWA Oversight of the Highway Bridge Program and the
           National Bridge Inspection Program,” Jan. 14, 2010. OIG reports are available on our Web site: www.oig.dot.gov.
                                                                                                                2


evaluate States’ use of Highway Bridge Program (HBP) funds. We also reported
that FHWA lacked the criteria and guidance for bridge engineers conducting
annual reviews to assess States’ compliance with bridge inspection standards
under the National Bridge Inspection Program. Subsequent to our reports, in July
2012, the Moving Ahead for Progress in the 21st Century Act (MAP-21) 3 changed
bridge safety requirements and funding uses and instituted new performance and
accountability requirements for bridges on the National Highway System (NHS).

We conducted this audit at the request of the Ranking Member of the House
Committee on Transportation and Infrastructure, who asked that we assess
FHWA’s efforts to improve bridge safety, including addressing our related
recommendations and MAP-21 bridge safety provisions. Accordingly, we initiated
two audits to address the Committee’s request. 4 For this initial audit, our
objectives were to assess FHWA’s actions in response to (1) the bridge safety
provisions in MAP-21 and (2) our prior bridge report recommendations. We
conducted this performance audit in accordance with generally accepted
Government auditing standards. Exhibit A details our scope and methodology.

RESULTS IN BRIEF
FHWA identified 24 actions needed to implement MAP-21 bridge safety and
funding provisions, including developing guidance, issuing rules on bridge safety
and funding, and reporting to Congress. FHWA completed 12 actions, but the
guidance FHWA issued to meet one of them is not sufficient because it does not
fully explain funding eligibility for related bridge projects. Of the 12 actions still
in progress, 2 MAP-21 rulemakings regarding asset management and performance
management are behind schedule and may delay States’ implementation of key
performance and accountability requirements by at least a year later than specified
in MAP-21. Additionally, FHWA has not finalized plans for issuing a Federal
Register Notice on the prioritization process for bridges or fully determined the
contents of a required report to Congress on national bridge and tunnel
inventories. Finally, FHWA is completing an additional bridge safety-related
action as directed by Congress after MAP-21’s enactment to reevaluate
requirements for signage of vertical bridge clearances. 5

Of our 16 prior bridge-related recommendations, FHWA is working to address
4 open recommendations. Two of these focus on collecting bridge expenditure
data and reporting on States’ actions to improve the condition of their deficient
bridges. FHWA plans to address our recommendations by providing more detailed
3
   P.L. 112-141.
4
   We also initiated a separate audit that focuses on FHWA’s bridge safety oversight activities. OIG Audit
Announcement, “FHWA’s Oversight of Bridge Safety,” Nov. 5, 2013.
5
   The Joint Explanatory Statement (Division L, Title I) that accompanied the 2014 Consolidated Appropriations Act
(P.L. 113-76).
                                                                                                               3


information on funds obligated for bridges. 6 Before we can close these
recommendations, we will evaluate how FHWA actually uses the obligation data
to assess States’ efforts to improve bridges and evaluate their use of funds for
bridge projects. The other two recommendations focus on collecting more detailed
condition data for all bridges on public roads so FHWA can better monitor
nationwide bridge conditions and identify safety risks. However, FHWA plans to
collect these data only for NHS bridges and complete a feasibility study for non-
NHS bridges as required by MAP-21. Therefore, we will need to consider the
results of the data collection and this study before we can close those
recommendations. Of the recommendations FHWA addressed and we closed, one
has resulted in decreased data errors in the National Bridge Inventory (NBI), 7 but
not all errors were corrected in a timely manner since FHWA’s guidance does not
set clear requirements for timely resolution of errors.

We are making recommendations to enhance FHWA’s planned actions to
implement MAP-21 requirements and address our prior recommendations.

BACKGROUND
FHWA establishes the standards for proper safety inspections of public highway
bridges through the National Bridge Inspection Standards (NBIS). 8 States are
responsible for ensuring that bridges within their jurisdictions are safe, and FHWA
is responsible for overseeing States’ efforts and providing technical expertise and
guidance. Prior to MAP-21, Congress provided funding to the States for bridge
replacement, rehabilitation, preventive maintenance, and inspections, through the
Federal-aid bridge program. However in 2012, MAP-21 eliminated the existing
dedicated funding program for bridges, the HBP, but it provided that bridge
improvements be eligible for funding through two of the largest Federal-aid
formula-based highway programs—the National Highway Performance Program
(NHPP) and the Surface Transportation Program (STP). The NHPP was
established by MAP-21 and provides funds to improve the condition and
performance of bridges on the NHS, while the continuing STP provides flexible
funding to preserve or improve bridges on any public road, including a set-aside
for off-system bridges. Additionally, MAP-21 instituted new performance and
accountability requirements for States to use in prioritizing NHPP spending; which
include establishing performance targets for NHS bridge conditions and using
bridge management systems. MAP-21 also instituted improvements to the NBIS,


6
  Currently, FHWA’s Fiscal Management Information System (FMIS) tracks Federal funding for State highway
projects and not by each public highway bridge.
7
  The NBI is a database maintained by FHWA using data that States submit annually, including information on the
location, age, ownership, condition, and load rating, and posting of the more than 600,000 public highway bridges
nationwide.
8
  23 C.F.R. Part 650, Subpart C.
                                                                                                    4


such as requiring States to report element-level bridge inspection data for bridges
on the NHS.

FHWA IS ADDRESSING MAP-21’S BRIDGE SAFETY PROVISIONS
BUT HAS YET TO FULLY IMPLEMENT ALL REQUIREMENTS
FHWA completed 12 of the 24 actions to implement MAP-21’s bridge safety and
funding provisions, but guidance for 1 completed action does not fully address the
funding eligibility of all bridge-related activities. FHWA has efforts underway to
address the 12 remaining actions. However, FHWA’s planned actions on critical
NHPP performance and accountability requirements are behind schedule. In
addition, FHWA has not finalized plans for when to issue a Federal Register
Notice or whether to include one inventory data element in a congressional report.
Finally, FHWA is working on an additional bridge safety-related action requested
by Congress after the enactment of MAP-21 to reevaluate requirements for
signage of vertical bridge clearances. Table 1 summarizes FHWA’s MAP-21
bridge-related actions. Exhibit B shows a more detailed status of all FHWA-
identified MAP-21 actions.

Table 1. Summary of FHWA’s Bridge-Related Actions

Deliverable               Status of FHWA Bridge-Related Actions

                          In Progress - 4 actions to be addressed in the asset and performance
Rulemaking
                          management rules and the NBIS rule
                          In Progress - 1 notice to be published in the Federal Register
Public Notice
                          Completed - 1 notice published in the Federal Register
Policy                    In Progress - 1 policy update by FHWA’s Office of Federal Lands Highway
Guidance                  Completed - 10 actions addressed in issued guidance
                          In Progress - 2 actions to be addressed in issued guidance
Reports                   In Progress - 4 reports to Congress (includes 1 post-MAP-21 action)
Data Summary              Completed - 1 required data summary published on FHWA’s Web site
Research                  In Progress - Multiple research projects (counted as 1 research action)
See Exhibit B for more detailed information.
Note: One action was added by Congress after MAP-21’s enactment.

FHWA Did Not Fully Address One Completed MAP-21 Bridge Funding
Eligibility Action
FHWA completed 12 of 24 actions to implement MAP-21 bridge safety and
funding provisions. These completed actions include issuing guidance on the
NHPP and the STP and providing a Web site summary of costs to replace
structurally deficient bridges. However, one of the completed actions—FHWA’s
newly issued STP guidance—does not fully address new MAP-21 funding
                                                                                                                5


eligibility provisions. 9 Specifically, the guidance does not consider that MAP-21’s
new National Bridge and Tunnel Inventory and Inspection Standards allow funds
through the STP to be eligible to replace destroyed bridges, restore ferry boat
service, and maintain historic bridges. As a result, States and local agencies that
rely on this guidance when planning and budgeting for bridge projects may be
unable to effectively assess which activities are eligible for Federal funding.
FHWA agrees that a description of this funding should be provided in revised
guidance.

FHWA Is Making Progress on Remaining MAP-21 Actions, but Critical
Performance and Accountability Requirements Are Behind Schedule
FHWA has 12 actions in progress to address MAP-21 bridge safety and funding
provisions. These actions include issuing rulemakings, submitting reports to
Congress, and providing guidance to the States. Of the 12 actions, the most
significant are related to 2 rulemakings regarding MAP-21’s performance and
accountability requirements for NHS bridges. FHWA has already experienced
some delays in developing the interdependent rulemakings to implement these
requirements, and States may not implement the last of the rules’ provisions until
October 1, 2016—1 year later than specified in MAP-21. Tables 2 and 3 provide a
timeline of FHWA’s planned actions to implement these bridge-related
performance and accountability requirements, which include (1) establishing State
asset management plans and performance management targets, (2) reporting on
progress and effectiveness of States’ and Metropolitan Planning Organizations’
(MPO) 10 investment strategies, and (3) implementing a funding penalty provision
for States that do not meet the minimum standard for NHS bridge conditions.




9
  MAP-21 Section 1111 (codified at 23 U.S.C. sec. 144(f) & (g)).
10
  An MPO is a policy board consisting of officials from State and local government and governmental transportation
agencies that serve an urban or designated transportation management area.
                                                                                                       6


Table 2. FHWA’s Planned Action Dates To Implement MAP-21
Bridge-Related Performance Plans and Reporting Requirements

 Action Category                                    FHWA Planned Action Dates
 Asset Management Plans
 Proposed Rule                                      October 24, 2014
 Final Rule                                         No estimated date provided by FHWA
                                                    (Required by April 1, 2014)
 State Implementation                               October 1, 2016
 (If final rule issued in fiscal year
 2015)
 Performance Management
 Proposed Rules (3)                                 March 11, 2014 – October 24, 2014 – December 5, 2014
                                                    (Required by April 1, 2014)
 Final Rule “Effective Date”                        April 1, 2015
 State Target Establishment                         April 1, 2016
 Progress Reporting
 State Report to FHWA                               October 1, 2016
 MPO Performance Information                        FHWA plans to use when available.
                                                    (No statutory requirement for MPOs to report to FHWA)
 FHWA Report to Congress                            October 1, 2017

Source: OIG analysis

Asset Management Plans and Performance Management. Based on FHWA’s
current schedule, States are to implement risk-based asset management plans by
October 1, 2016—1 year after MAP-21 intended. These risk-based plans are a key
component of MAP-21 and must include strategies for a program of projects to
achieve State-established targets for NHS asset condition and performance. For
States to effectively implement these plans, FHWA must complete two critical
rules, but it is already behind schedule in meeting MAP-21’s deadlines:

     • First, MAP-21 required FHWA to issue a final rule for asset management plans
       by April 1, 2014, and requires States to implement their plans at the start of the
       second fiscal year after the rule is issued (by October 1, 2015). 11 This rule must
       specify the requirements needed for States to develop compliant risk-based
       asset management plans, including bridges on the NHS. 12 FHWA currently
       plans to issue a Notice of Proposed Rulemaking (NPRM) on October 24, 2014,
       and has no planned date for issuing a final rule. Based on FHWA’s current


11
     MAP-21 Section 1106 (codified at 23 U.S.C. sec. 119(e)(5)).
12
     MAP-21 Section 1106 (codified at 23 U.S.C. sec. 119(e)(1)).
                                                                                              7


      schedule for ending the public comment period in January 2015, 13 it will not be
      able to issue the final rule until sometime afterwards. This will allow States
      until the start of the second subsequent fiscal year, October 1, 2016, to
      implement their plans—a year later than MAP-21 intended.

     • Second, MAP-21 required FHWA to initiate the rulemaking process by
       April 1, 2014, to develop national highway performance management
       measures. 14 Some of these measures are associated with NHS bridge
       conditions. States are to use these measures to establish performance targets in
       conjunction with their asset management plans. FHWA currently plans to issue
       three separate rulemakings to establish these performance measures (see
       insert)—making them all effective on April 1, 2015. MAP-21 would then
       allow States 1 year after this date to use
       these measures and develop their FHWA Performance
                                                         Management Rules:
       performance targets. FHWA has already
                                                         Rule 1 - Injuries and fatalities.
       missed the statutory rulemaking deadline (NPRM issued March 11, 2014.)
       and anticipates over an 8-month delay in Rule 2 - Interstate and non-
       issuing the third required NPRM. interstate NHS pavement
       Additional delays are possible, as FHWA conditions            and performance and
                                                         NHS bridge conditions.
       has stated that a typical rule takes up to (NPRM Planned October 24, 2014.)
       1 year to issue after the NPRM, and in this Rule 3 – Performance of the
       case, due to the compressed schedule, interstate and non-interstate NHS,
                                                         traffic congestion, on-road mobile
       FHWA has allocated less than 4 months for source emissions, and Interstate
       developing the last of the final rules. freight movement.
       Additionally, because of FHWA’s plans to (NPRM Planned December 5, 2014.)
       synchronize the effective date of all three
       rules, difficulties in finalizing any of them could also delay the other rules.

Progress Reporting. MAP-21 requires States to report on their progress in
meeting performance requirements and FHWA to report on the progress of States
and MPOs. Current delays in issuing the asset management plan final rule and
further delays in issuing the performance management rules may result in these
progress reports either being issued late or only containing limited information.

     • In the first biennial report, due October 1, 2016, MAP-21 requires States to
       report to FHWA on their progress in achieving their performance targets and
       on the effectiveness of their investment strategies. 15 However, under FHWA’s
       current schedule, States will not be required to establish their performance
       targets until April 1, 2016—only 6 months before they must report on their
       progress in achieving them. Additionally, due to the delay in the asset

13
   Report on the Department of Transportation’s Significant Rulemakings, July 2014.
14
   FHWA interpreted MAP-21’s requirement to promulgate a rulemaking to mean issuing a NPRM.
15
   MAP-21 Section 1203 (codified at 23 U.S.C. sec. 150(e)).
                                                                                                                    8


      management plan rule, States will not be required to implement their plans for
      achieving those targets until the same date they are required to report their
      results to FHWA—rendering them unable to evaluate the effectiveness of their
      plans’ investment strategies. Because of MAP-21’s 2-year reporting
      requirement for this report, States may not be able or required to report
      completely to FHWA on their progress until October 1, 2018—2 years after
      MAP-21 intended.

     • In the second report, due October 1, 2017, 16 MAP-21 requires FHWA to report
       to Congress on the effectiveness of (1) performance-based planning as a tool
       for guiding transportation investments overall and (2) performance-based
       planning processes of States and MPOs. 17 However, since the States’ initial
       reports to FHWA may be incomplete, the report to Congress may not contain
       required information regarding the effectiveness of MAP-21 performance
       initiatives. Additionally, while FHWA plans to use various sources of
       information to report on MPO performance, important MPO System
       Performance Reports may not be available to FHWA when needed since they
       are part of the MPO transportation plans, which are updated every 4 or 5 years.
       As a result, a lack of timely MPO performance information available to FHWA
       could likewise limit its capacity to present a complete and timely report to
       Congress.

Funding Penalties for States With Structurally Deficient NHS Bridges. MAP-
21 established a minimum standard for the condition of NHS bridges tied to each
State’s use of funds. As a result, each State must devote a portion of its NHPP
funds to eligible NHS bridge projects if more than 10 percent of the total deck area
of a State’s NHS bridges is on structurally deficient bridges for 3 consecutive
years. 18 FHWA does not plan to enforce this requirement until October 1, 2016—
4 years after MAP-21’s enactment. Table 3 on the following page provides a
timeline of FHWA’s planned actions to implement the penalty provision.




16
   MAP-21 Section 1201 (codified at 23 U.S.C. sec. 134(l)) and Section 1202 (codified at 23 U.S.C. sec.135(h)) require
FHWA to submit the report 5 years after MAP-21’s enactment.
17
   MAP-21 Section 1201 (codified at 23 U.S.C. sec. 134(h)(2)(C)) requires MPOs to establish performance targets not
later than 180 days after the relevant State establishes its targets.
18
   MAP-21 Section 1106 (codified at 23 U.S.C. sec. 119(f)(2)(A)).
                                                                                                               9


Table 3. FHWA’s Planned Action Dates To Implement MAP-21’s
Bridge Funding Penalty Provision

NHPP Bridge Funding Penalty                           FHWA Planned Action Dates
NBI Data for Compliance Assessments                   December 2014 - April 2015 - April 2016
Due
Final Rule on Penalty Process                         April 1, 2015
First Penalty Enforcement                             October 1, 2016

Source: OIG analysis

FHWA officials stated that the delays in implementing this requirement are
necessary because (1) it is part of a new program, so States need time to adjust
their bridge programs accordingly before the penalty provision is applied, and
(2) it would be inaccurate to apply the penalty criteria retroactively to bridge data
collected prior to MAP-21 since it expanded the NHS—resulting in more bridges
being classified as NHS bridges.

According to FHWA, its upcoming bridge performance management rule will
establish funding penalty procedures. However, since that rule is not scheduled to
become effective until April 1, 2015, enforcement of the penalty could be further
delayed. According to FHWA, if comments received during the rulemaking
process result in a change to current definitions such as that of structurally
deficient bridges, States may be allowed an additional 2 years to report their NHS
bridge data. This would also delay enforcement of the penalty—to fiscal year
2019, or 6 years after MAP-21’s enactment.

Until FHWA begins enforcing the penalty, there will be no consequences for
States that do not achieve the minimum standards for NHS bridge conditions. To
illustrate the potential impact of not having the enforcement actions in place in the
year after MAP-21 was enacted, we analyzed NBI data from the 3 years prior to
MAP-21’s enactment, which do not include the bridges added to the NHS by
MAP-21. Our analysis shows that, if the penalty were in place, 10 States 19 and the
District of Columbia may have been required to dedicate funds to improve their
NHS bridges.




19
 California, Connecticut, Illinois, Indiana, Massachusetts, New York, Pennsylvania, Rhode Island, Washington, and
Wyoming.
                                                                                                                 10


FHWA Has Not Finalized Plans for a Process To Prioritize Bridge
Projects or Report Bridge Replacement Costs
FHWA has not fully addressed MAP-21 actions related to prioritizing bridge
projects and reporting of replacement costs for structurally deficient bridges.
Specifically,

     • FHWA has not set a target completion date to issue a Federal Register Notice
      describing the establishment of a risk-based bridge prioritization process 20 for
      collecting information that could help States evaluate potential bridge projects.

     • FHWA has not determined if it will address the costs of replacing each
       structurally deficient bridge or the cost of rehabilitating each bridge in its
       required Bridge and Tunnel Inventory report to Congress. Determining the cost
       of replacing each structurally deficient bridge is one 21 of five MAP-21 bridge
       and tunnel inventory requirements for collecting and creating inventory
       information. 22 FHWA plans to report on the other four inventory requirements
       and did publish a summary of the replacement and rehabilitation costs on its
       Web site. 23 FHWA officials said they could add a link to the Web site in the
       report to Congress. However, this would not provide decision makers with an
       official record of costs—as a report to Congress would—because FHWA could
       update, change, or delete Web data at any time.

FHWA Is Working on a Bridge Safety Report Requested by Congress
After MAP-21
Subsequent to MAP-21, Congress directed in the Joint Explanatory Statement
accompanying the Consolidated Appropriations Act of 2014 that FHWA complete
an additional action related to bridge safety. FHWA was requested to reevaluate
Federal and State requirements for marking bridge height, including standards
related to the position and design of such signs and the enforcement of such
standards, and report to Congress on the results of its review. FHWA is
completing this review and plans to issue a draft report by September 30, 2014.

FHWA COMPLETED MOST PRIOR OIG BRIDGE
RECOMMENDATIONS, BUT FOUR REMAIN OPEN
Since 2006, we have issued 3 reports with 16 recommendations to improve
FHWA’s oversight of bridges. FHWA is addressing the four remaining open

20
   MAP-21 Section 1111 (codified at 23 U.S.C. sec. 144(b)(3) & (4)).
21
   MAP-21 Section 1111 (codified at 23 U.S.C. sec. 144(d)(1)(B)).
22
   MAP-21 Section 1111 (codified at 23 U.S.C. sec. 144(b)(5)).
23
   FHWA’s Web site summary of costs to replace or rehabilitate structurally deficient bridges can be found at:
   http://www.fhwa.dot.gov/bridge/nbi/sd2012.cfm
                                                                                                                   11


recommendations. Two of these recommendations address analyzing and reporting
on bridge funding and the other two recommendations address collecting more
detailed element-level 24 bridge condition data. FHWA completed actions
addressing the other 12 recommendations—such as updating its guidance on data
submissions to the NBI, which significantly reduced the number of NBI data
errors detected by the Agency’s validation process. However, some NBI data
errors are still not corrected in a timely manner. Table 4 summarizes the status of
actions that we have recommended. Exhibit C provides a more detailed summary.

Table 4. Summary of OIG Recommended Actions

Overall Actions                             Status of Specific OIG Recommendations

To analyze the expenditures of              Open – 2 recommendations to (1) Collect and analyze HBP
bridge funding and measure                  expenditure data on a regular basis and (2) report regularly
progress in improving the                   to internal and external stakeholders and evaluation of
condition of deficient bridges.             progress made in achieving performance targets.

                                            Closed – 1 Recommendation
To define and enforce compliance            Closed – 2 Recommendations
with the NBIS.
To develop and implement data-              Closed – 5 Recommendations
driven, risk-based oversight.
To improve data quality in the NBI          Open – 2 Recommendations to increase FHWA’s use of
and collect more detailed bridge            element-level data by (1) incorporating AASHTO’s updated
condition data.                             standards into the NBIS through the rulemaking process and
                                            (2) developing and implementing a plan to collect element-
                                            level data after AASHTO’s updated standards have been
                                            incorporated into the NBIS.

                                            Closed – 2 Recommendations
To advance the use of effective             Closed – 2 Recommendations
bridge management systems.


Efforts Are Underway To Address Two Open OIG Recommendations
Related to Bridge Funding
In 2010, we recommended that FHWA (1) collect and analyze HBP expenditure
data to identify activities States took to improve the condition of deficient bridges
and (2) report on the effectiveness of States’ efforts to improve bridges based on
that analysis and provide an evaluation of progress made in achieving performance
targets. We made the recommendations because FHWA’s FMIS lacked the detail
necessary for its Headquarters bridge office to identify the amount of Federal-aid

24
  Element-level data provide detailed information that describes a bridge’s composition and condition, such as the type
of material it is made of and the extent, nature, and severity of any deterioration.
                                                                                                       12


funds States expended on structurally deficient bridges. This information is
necessary to determine the extent that Federal funds result in improved bridge
conditions.

Although these open recommendations pertain to the HBP, which MAP-21
abolished, other programs—primarily the NHPP and STP—provide States with
significant funding that can be used for bridge projects. FHWA stated that it still
plans to meet the intent of our prior recommendations and initially planned to
collect States’ Federal-aid bridge expenditure data as part of its FMIS
modernization effort. FHWA later scaled back this effort and now plans to collect
data on bridge-specific obligated funds rather than expenditures. FHWA expects
to implement the modernized FMIS in fiscal year 2015.

While expenditure data provide the most relevant information on the use of
Federal-aid bridge funds, FHWA’s proposed use of obligation data could also
yield useful information and help the Agency verify whether funding penalties for
States that exceeded structurally deficient NHS bridge thresholds are applied
appropriately. However, using obligation data has some limitations. Specifically,
obligations for ongoing bridge projects are based on estimated project costs and do
not reflect how much Federal funds have actually been spent on bridges to date or
in a given year. Instead, obligation amounts represent the current Federal share of
ongoing projects, which may change until the project is closed out and the data are
complete—which can be several years after the project was initiated. Ideally,
having both bridge expenditure and obligation data would be the most useful since
it reflects both historical and prospective costs.

FHWA officials stated that they have not ruled out collecting expenditure data in
future versions of FMIS. Without specific data on States’ Federal-aid bridge
expenditures, it may be difficult for FHWA to provide the information
stakeholders need to assess whether Federal funds are being used effectively to
improve structurally deficient bridges. Before we can close recommendations on
bridge funding, we will need to review FHWA’s use of obligation data to
determine whether FHWA can identify the cost of bridge improvements and
whether it can effectively use the data to report on the States’ efforts to improve
bridges and evaluate their use of funds for bridge projects. FHWA officials intend
to include the results of their analysis in their biennial Conditions and Performance
Report to Congress. 25




25
   This report provides decision makers with an objective appraisal of the physical conditions, operational
performances, and financing mechanisms of highways, bridges, and transit systems.
                                                                                                                13


FHWA Is Addressing Two Open OIG Recommendations To Collect
More Detailed Bridge Condition Data
In 2009, we recommended that FHWA increase the collection of element-level
bridge data by (1) incorporating the American Association of State Highway and
Transportation Officials’ (AASHTO) updated standards into the NBIS to require
the collection and submittal of element-level data and (2) implementing a plan to
collect the data. Such data should allow FHWA to better monitor nationwide
bridge conditions and identify safety risks.

While we recommended that FHWA require States to collect element-level data
for all bridges, MAP-21 only requires that States collect these data for NHS
bridges as each bridge is inspected, within 2 years after enactment. FHWA has
issued a series of related guidance and is requiring States to start collecting
element-level data for all NHS bridge inspections completed after
October 1, 2014, and to be reported as part of subsequent NBI data submissions.
Additionally, FHWA plans to incorporate the element-level data requirement into
its update to the NBIS regulations required by MAP-21 to be completed by
October 1, 2015. 26 MAP-21 also requires FHWA to conduct a feasibility study for
collecting element-level bridge data for bridges not on the NHS. Accordingly,
FHWA initiated this feasibility study and plans to complete it by September 2014.

In light of the ongoing efforts, FHWA officials requested that we close our 2009
recommendations. However, we will need to consider the results of the feasibility
study and FHWA’s planned changes and final rules to the NBIS before closing
those recommendations. If the study concludes that it is feasible to collect
element-level data for non-NHS bridges, then it would be prudent for FHWA to
require States, through its NBIS rulemaking process, to collect element-level data
for all bridges, as we recommended. 27

FHWA Made Significant Progress Addressing OIG Recommendations
To Resolve National Bridge Inventory Errors, but Vulnerabilities
Persist
FHWA addressed 12 of our 16 bridge recommendations, including implementing
data-driven, risk-based oversight; improving NBI data quality; and advancing the
use of bridge management systems. Among the completed actions was one for
FHWA to promptly correct data errors identified by its automated NBI validation
process. 28 FHWA is responsible for maintaining the NBI, which consists primarily
of State-submitted data including the location, age, ownership, condition, load
26
   The update to the NBIS, required by MAP-21 Section 1111 (codified at 23 U.S.C. sec. 144(h)(6)), will also address
requirements related to complex structures, critical findings, and inspection intervals.
27
   MAP-21 does not prescribe any actions that FHWA must take once the study is completed.
28
   The validation process includes automated checks of NBI data items for missing information, potentially invalid
entries, and inconsistencies. FHWA then coordinates with States to resolve the identified errors.
                                                                                                                   14


rating, and sign postings of the more than 600,000 public highway bridges
nationwide. In response to our 2009 recommendation, FHWA implemented a
process to notify States of data inaccuracies identified by its NBI validation
process and to request corrections of those errors.

In 2009 FHWA addressed—and we closed—our recommendation based on
FHWA’s improvement to its NBI validation process. Since that time, FHWA
documented a 97-percent reduction in errors. However, our current review found
that while errors have indeed decreased, they are not always corrected in a timely
manner. Table 5 shows the number of errors that the NBI validation process found
annually between 2008 and 2013 in the final NBI submissions.

Table 5. Data Errors Found in States’ Final NBI Submissions
Through FHWA’s Validation Process, From 2008 to 2013

                      Year                                   Data Errors in States’
                                                             Final NBI Submissions
                      2008                                                            139,471
                      2009                                                            113,948
                      2010                                                              20,004
                      2011                                                                6,931
                      2012                                                                5,092
                      2013                                                                3,880
                    Source: FHWA

Based on a statistical sample of 100 of 5,726 NBI errors, 29 we determined that
FHWA’s validation process identified 1,890 significant errors in States’ 2012 NBI
data submissions. 30 Of these significant errors, we estimate that 88 percent were
uncorrected by the end of 2012. 31 A third of these were from the previous year
even though FHWA requires States to immediately resolve errors it deems
significant. For all errors FHWA identified through its validation process in 2012,
we estimate that 58 percent remained uncorrected at the end of 2012, and
17 percent were still uncorrected by the end of 2013. 32 This was because FHWA’s
policy on NBI data submission and error resolution does not clearly define the
Agency’s data quality expectations or its requirements for timely resolution of

29
   Our sample was selected from a universe of 5,726 NBI data errors FHWA had identified in States’ NBI submissions
throughout 2012 and asked Division Offices and States to correct. FHWA’s error count of 5,092 in 2012 was based
only on State’s final NBI submissions.
30
   FHWA defines significant errors as errors that impact on the deficiency status or the sufficiency rating calculation,
which indicates whether a highway bridge has sufficiency to remain in service.
31
   Our estimate of 88 percent has a precision of +/-9.4 percentage points at the 90-percent confidence level.
32
   Our estimates of 58 and 17 percent have a precision of +/-8.1 and +/-6.2 percentage points respectively, both at the
90-percent confidence level.
                                                                                                                  15


errors. 33 NBI data are used to report on the condition of the Nation’s bridges,
enhance FHWA’s oversight of bridge safety, and evaluate the impact of varied
Federal investment levels. Any inaccuracies in the data may negatively impact
FHWA’s ability to exercise effective oversight and stewardship of Federal funds.

CONCLUSION
FHWA is responsible for overseeing States’ compliance with National Bridge
Inspection Standards that are intended to ensure the safety of the Nation’s roughly
600,000 highway bridges. Since 2006, FHWA has completed important actions to
address our previous audit recommendations and new MAP-21 requirements.
However, MAP-21 presents several significant challenges for FHWA in the
coming years—especially its emphasis on performance and accountability. These
MAP-21 requirements call for new rulemakings and guidance and a fundamental
shift in how bridges—previously funded in large part by the Highway Bridge
Program—will be managed.

RECOMMENDATIONS
We recommend that the Federal Highway Administrator:

1. Update the STP guidance to address the funding eligibility of historic bridges
   and replacement of destroyed bridges and ferry boat service.

2. Establish a target date for completing the asset management plan final rule.

3. Establish a target date for FHWA to complete a Federal Register Notice
   describing the establishment of a risk-based bridge prioritization process.

4. Include a summary of the cost to replace structurally deficient bridges as part
   of FHWA’s required bridge inventory report to Congress.

5. Update FHWA’s NBI guidance to clarify the Agency’s expectations for data
   quality and the process for ensuring that identified errors are resolved in a
   timely manner, including required timeframes for error resolution.




33
  FHWA also recognizes that correction of some errors require physical verification and will not be resolved until the
next inspection cycle, which typically occurs every 24 months.
                                                                                  16


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FHWA with our draft report on July 9, 2014. We received technical
comments from FHWA on July 31, 2014, and incorporated them in our report as
appropriate. We received FHWA’s formal response on August 6, 2014, which is
included in its entirety in the appendix to this report. In its response, FHWA stated
that it concurred with recommendations 1 and 5, partially concurred with
recommendation 2, and agreed to implement recommendations 3 and 4. However,
FHWA did not provide specific information on all of its planned actions or
completion dates as requested in our draft report. Subsequent to its response,
FHWA provided additional details of its planned actions for recommendations 3
and 4, and we consider them resolved but open pending completion of the planned
actions. Until FHWA provides further information on its actions and completion
timeframes for recommendations 1, 2 and 5, we will consider these
recommendations open and unresolved. Specifically:

For recommendations 1 and 5, FHWA stated it completed the actions
recommended. However, our review of documentation provided by FHWA
indicates that additional FHWA actions are needed to meet the intent of our
recommendations; therefore we consider these recommendations open and
unresolved. While FHWA updated its STP guidance to address recommendation 1,
it did not update the corresponding STP fact sheet on its Web site, which should
be consistent with related guidance and statute. Similarly, while FHWA issued
new guidance for resolving NBI data errors to address recommendation 5, it is not
fully consistent with its existing Standard Operating Procedure and Bridge
Program Manual, which is necessary to establish clear expectations for data
quality. Therefore, we request that FHWA update its STP fact sheet and either
clarify how the new NBI guidance supersedes its existing related policy or update
the related policy so that it is fully consistent.

For recommendation 2, FHWA did not describe its rationale for partial
concurrence or provide a target action date for completing the asset management
plan final rule, as we recommended. We consider this recommendation open and
unresolved and request that FHWA provide us with this information.
                                                                             17


ACTIONS REQUIRED
We consider recommendations 1, 2, and 5 open and unresolved and, in accordance
with DOT Order 8000.1C, request that FHWA provide, within 30 days of this
report, the additional information requested above. We consider recommendations
3 and 4 resolved but open pending completion.

We appreciate the courtesies and cooperation of FHWA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or David Pouliott, Program Director, at (202) 366-1844.

                                       #
cc: DOT Audit Liaison (M-1)
    FHWA Audit Liaison (HAIM-13)
                                                                               18



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from August 2013 through July 2014 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To assess FHWA’s actions taken or planned regarding MAP-21 implementation
and OIG bridge recommendations, both open and closed, we interviewed FHWA
Headquarters personnel and key stakeholders, such as AASHTO. Additionally, we
reviewed FHWA documentation and assertions made and relied on the support of
our expert engineer and legal counsel. We further reviewed FHWA data, NBI
data, and information available through FHWA’s Web site.

We selected a statistical sample of 100 of the 5,726 NBI data errors that FHWA
had identified in States’ NBI submissions for 2012. We tested whether these errors
had, in fact, been corrected; when the sampled item was corrected; if the item was
considered significant or not; and if it was present in the prior year or in the
subsequent year. We also reviewed emails between FHWA Headquarters and
Division Offices regarding error follow-up. Our sample design allowed us to
estimate the percentage of errors that were still uncorrected with 90-percent
confidence and a precision no greater than +/-9.4 percentage points.




Exhibit A. Scope and Methodology
                                                                                                                            19




EXHIBIT B. FHWA’S PLANNED ACTIONS TO IMPLEMENT MAP-21 BRIDGE SAFETY AND
FUNDING PROVISIONS – AS OF JULY 31, 2014


         MAP-21                           Description of
Number   Section/Title      Deliverable   Deliverable                  Action Date       Status
1        Section 1104       Guidance      Web site Questions and       Completed         FHWA issued Questions and Answers
         National Highway                 Answers and updated          9/25/2012         and updated NHS maps on its Web site.
         System (NHS)                     maps for the expanded
                                          National Highway
                                          System (NHS).
2        Section 1106       Guidance      Implement guidance for       Completed         FHWA initially issued guidance on its
         National Highway                 the NHPP.                    10/1/2012         Web site and subsequently updated the
         Performance                                                   Updated           guidance.
         Program (NHPP)                                                11/19/2012
3                           Final Rule    Implement State funding      In Progress       FHWA issued Questions and Answers
                                          penalty regarding            NPRM 10/24/2014   regarding the bridge funding penalty on
                                          minimum standards for        FR 4/1/2015       9/25/2012. FHWA plans to include
                                          NHS bridge conditions.                         penalty process rules as part of its
                                                                                         second performance management rule
                                                                                         planned to be effective on 4/1/2015.
4                           Guidance      Web site Questions and       Completed         FHWA issued Questions and Answers.
                                          Answers concerning           9/25/2012         (The guidance also applies to Section
                                          eligibility of safety nets                     1108 requirements.)
                                          on bridges.
5                           Guidance      Web site Questions and       Completed         FHWA issued Questions and Answers
                                          Answers concerning           9/25/2012         on its Web site.
                                          asset management.
6                           Final Rule    Regulation on State          In Progress       FHWA’s Final rule is behind schedule
                                          asset management             NPRM 10/24/2014   based on MAP-21’s deadline for a final
                                          plans.                       FR No Date        rule by 4/1/2014.


Exhibit B. FHW A’s Planned Acti ons To Implement M AP-21 Bridge Safet y and Funding Provi sions – as of
Jul y 31, 2014
                                                                                                                                 20




         MAP-21                               Description of
Number   Section/Title     Deliverable        Deliverable                 Action Date      Status
7        Section 1108      Guidance           Implementing guidance       Completed        FHWA issued guidance and
         Surface                              for the STP.                10/1/2012        subsequently updated the guidance.
         Transportation                                                   Updated
         Program (STP)                                                    11/19/2012 and
                                                                          7/21/2014
8                          Guidance           Guidance for off-system     Completed        FHWA issued guidance ahead of its
                                              bridge set-asides and       10/17/2012       4/1/2014 schedule date.
                                              waivers.
9        Section 1111      Federal Register   Notice describing the       In Progress      FHWA is drafting a Notice.
         National Bridge   Notice             establishment of a risk-    No date
         and Tunnel                           based bridge
         Inventory and                        prioritization process.
10       Inspection        Data Summary       Data summary of bridge      Completed        FHWA posted data summary on their
         Standards                            replacement and             10/22/2013       Web site.
                                              rehabilitation costs for
                                              structurally deficient
                                              bridge preservation.
11                         Congressional      Report on bridge and        In Progress      FHWA has drafted framework for the
                           Report             tunnel inventory to         11/30/2014       report and it is circulating for review and
                                              Congress.                                    comments.
12                         Guidance           Guidance for States to      Completed        FHWA issued guidance memoranda on
                                              collect element-level       12/16/2013       4/16/2012, 3/12/2013, and 12/16/2013
                                              data for NHS bridges.                        ahead of its 10/1/2014 schedule date.
13                         Congressional      Report on study of the      In Progress      The study is ongoing.
                           Report             feasibility of collecting   9/30/2014
                                              element-level data for
                                              non-NHS bridges.
14                         Final Rule         Update and revise the       In Progress      FHWA is working on issuing the required
                                              National Bridge             NPRM 12/1/2014   MAP-21 rule. (The statutory deadline for
                                              Inspection Standards        FR 10/1/2015     the final rule is 10/1/2015.)


Exhibit B. FHW A’s Planned Acti ons To Implement M AP-21 Bridge Safet y and Funding Provi sions – as of
Jul y 31, 2014
                                                                                                                              21




         MAP-21                               Description of
Number   Section/Title     Deliverable        Deliverable               Action Date       Status
                                              (NBIS).
15                         Federal Register   Notice to describe the    Completed         FHWA issued a Notice on 5/12/2014.
                           Notice             FHWA’s revised NBIS       5/12/2014
                                              oversight process.
16                         Guidance           Web site Questions and    Completed         FHWA issued Questions and Answers
                                              Answers to describe the   9/25/2012         and subsequently updated them.
                                              program changes to the    Updated
                                              National Bridge and       10/9/2013
                                              Tunnel Inventory and
                                              Inspection Standards.
17       Section 1203      Guidance           Guidance to complete      In Progress       FHWA has formed a team and
         National Goals                       the biennial State        6/1/2015          developed a draft outline for the
         and Performance                      performance report to                       guidance.
         Management                           FHWA.
         Measures
18                         Guidance           Guidance to States on     In Progress       FHWA has identified requirements and is
                                              setting targets to        6/1/2015          developing a scope of work for guidance
                                              advance national goals.                     in support of proposed regulation.
19                         Guidance           General implementation    Completed         FHWA completed implementation
                                              schedule of MAP-21        7/2/2013          schedule ahead of its 8/31/2013
                                              performance                                 schedule date.
                                              management elements.
20                         Final Rule         Second performance        In Progress       FHWA’s issuance of the NPRM is about
                                              management                NPRM 10/24/2014   7 months behind statutory deadline of
                                              regulation—pavement       FR 4/1/2015       4/1/2014. FHWA plans make the
                                              and bridge performance                      performance management rules effective
                                              measure.                                    on 4/1/2015.




Exhibit B. FHW A’s Planned Acti ons To Implement M AP-21 Bridge Safet y and Funding Provi sions – as of
Jul y 31, 2014
                                                                                                                                      22




           MAP-21                                   Description of
 Number    Section/Title       Deliverable          Deliverable                 Action Date       Status
 21                            Guidance             Q&As regarding the          Completed         FHWA issued Questions and Answers
                                                    performance                 10/1/2012         and subsequently updated them.
                                                    management                  Updated
                                                    requirements.               7/15/2013
 22        Section 1119        Policy               Policy change regarding     In Progress        FHWA is working to update its policy.
           Federal Lands                            asset management            9/30/2014
           and Tribal                               requirements for three
           Transportation                           agencies newly covered
           Program                                  by FHWA’s Office of
                                                    Federal Lands Highway.
 23        Section 32801       Congressional        Report will include         In Progress       FHWA has commenced work on
           Comprehensive       Report               analysis of truck sizes     11/15/2014        preparing the required report. Technical
           Truck Size and                           and weights and                               analysis for the report is under way on
           Weight Limits                            the number of bridges                         assessing the impact of a change in
           Study                                    that require postings.                        Federal truck size and weight limits on
                                                                                                  bridges.
 24        Section 52003       Research and         Research related to         In Progress       FHWA has multiple ongoing research
           Research and        Development          bridges and bridge          Various           projects with various completion dates.
           Technology                               safety.
           Development and
           Deployment
 Other     2014                Congressional        Report will include         In Progress       FHWA is in the process of completing
           Appropriations      Report               evaluation of signage for   1/17/2015         the review and anticipates a draft report
           Act                                      vertical bridge                               by September 30, 2014. (The statutory
                                                    clearances.                                   deadline for the report is 1/17/2015.)


Key:    NPRM = Notice of Proposed Rulemaking.
        FR = Final Rule.
Source: OIG compilation of information provided and confirmed by the Federal Highway Administration.



Exhibit B. FHW A’s Planned Acti ons To Implement M AP-21 Bridge Safet y and Funding Provi sions – as of
Jul y 31, 2014
                                                                                                                      23




EXHIBIT C. FHWA’S ACTIONS TO ADDRESS OIG BRIDGE RECOMMENDATIONS – AS OF JULY
31, 2014


OIG Report       Number   Recommendation                                      Action Date   Status
MH-2006-043      A01      Revise its annual compliance reviews of state       Closed        FHWA developed several tools
                          bridge programs to address the most serious         4/1/2009      and resources to aid in its
                          deficiencies found during bridge inspections.                     oversight of state bridge
                          FHWA should, develop a risk-based, data-                          inspection programs that includes
                          driven approach and metrics to focus on                           specific load rating and posting
                          ensuring that states:                                             guidance and data-based reports
                                                                                            to evaluate load rating and
                          a. Maintain up-to-date maximum weight limit
                                                                                            posting data.
                          records through state quality assurance/quality
                          control programs that ensure current bridge
                          conditions are accurately incorporated into load
                          rating calculations.
                          b. Post accurate maximum weight limit signs on
                          bridges in a timely manner, when inspections
                          indicate posting or revised posting should
                          occur.
                          c. Coordinate with other states to improve the
                          accuracy and completeness of the Bridge
                          Inventory and reporting of results to Congress.
                          FHWA should focus on reducing discrepancies,
                          including the most frequent deficiency identified
                          in our statistical sample—the failure of
                          information in the Bridge Inventory to match
                          bridge load rating results in state databases.




Exhibit C. FHW A’s Actions To Address OIG Bridge Recommendations – as of Jul y 31, 2014
                                                                                                                           24




OIG Report       Number   Recommendation                                        Action Date   Status
MH-2006-043      A02      Evaluate greater use of computerized bridge           Closed        FHWA completed an assessment
                          management systems to improve states’ bridge          4/1/2009      of States’ use of bridge
                          inspection programs and enhance the accuracy                        management systems and called
                          of bridge load ratings.                                             for continued research related to
                                                                                              the use of bridge management at
                                                                                              the national level.
MH-2009-013      A01      Develop and implement minimum requirements            Closed        FHWA initiated a new bridge
                          for data-driven, risk-based bridge oversight          3/25/2011     safety oversight initiative that
                          during bridge engineers’ annual NBIS                                includes a revised process to
                          compliance reviews.                                                 assess States’ compliance with
                                                                                              the NBIS using 23 metrics.
MH-2009-013      A02      Develop a comprehensive plan to routinely             Closed        FHWA updated their program
                          conduct systematic, data-driven analysis to           3/25/2011     guidance and formed a dedicated
                          identify nationwide bridge safety risks, prioritize                 team to assess nationwide bridge
                          them, and target those higher priority risks for                    safety risks.
                          remediation in coordination with States. In
                          implementing the plan, direct the Office of
                          Bridge Technology to routinely and
                          systematically identify and prioritize nationwide
                          bridge safety risks.
MH-2009-013      A03      Develop a comprehensive plan to routinely             Closed        FHWA initiated a new bridge
                          conduct systematic, data-driven analysis to           3/25/2011     safety oversight initiative that
                          identify nationwide bridge safety risks, prioritize                 includes a revised process to
                          them, and target those higher priority risks for                    address States’ bridge safety
                          remediation in coordination with States. In                         risks.
                          implementing the plan, direct the Division
                          Offices to work with States to remediate higher
                          priority nationwide bridge safety risks.
MH-2009-013      A04      Develop a requirement for states to correct           Closed        FHWA introduced new error
                          promptly data inaccuracies found by FHWA’s            12/15/2009    check procedures for the
                          NBI data validation program.                                        submittal, collecting, reviewing
                                                                                              and assessment of NBI data.



Exhibit C. FHW A’s Actions To Address OIG Bridge Recommendations – as of Jul y 31, 2014
                                                                                                                        25




OIG Report       Number   Recommendation                                       Action Date   Status


MH-2009-013      A05      Increase FHWA’s use of element-level data by         Closed        AASHTO published updated
                          coordinating with AASHTO to update the               3/25/2011     standards in their Guide Manual
                          standards for element-level data.                                  for Bridge Element Inspection.
MH-2009-013      A06      Increase FHWA’s use of element-level data by         Open          FHWA’s rulemaking process is
                          incorporating AASHTO’s updated standards             Target Date   ongoing. FHWA plans to publish
                          into the NBIS through the rulemaking process.        10/1/2015     the Notice of Proposed
                                                                                             Rulemaking in December 2014.
MH-2009-013      A07      Increase FHWA’s use of element-level data by:        Open          FHWA plans to collect element-
                          Developing and implementing a plan to collect        Target Date   level data for NHS bridges
                          element-level data after AASHTO’s updated            12/31/14      starting in 2015 and, as directed
                          standards have been incorporated into the                          by MAP-21, is studying the
                          NBIS.                                                              feasibility to include non-NHS
                                                                                             bridges.
MH-2009-013      B01      Initiate a program to collect data regularly on      Closed        FHWA established a process to
                          States' use of Bridge Management Systems,            7/26/2011     periodically collect bridge
                          evaluate the data to identify those States most                    management information and
                          in need of assistance in implementing effective                    completed two surveys and
                          Bridge Management Systems, and target them                         targeted training.
                          for technical assistance and training resources.
MH-2010-039      A01      Collect and analyze HBP expenditure data on a        Open          FHWA is expanding the collection
                          regular basis to identify activities undertaken by   Target Date   of project information and more
                          states, such as bridge replacement and               12/31/2014    comprehensive cost data within
                          rehabilitation, to improve the condition of the                    FMIS that can be linked to bridge
                          Nation’s deficient bridges.                                        condition data.

MH-2010-039      A02      Collaborate with States in setting quantifiable      Closed        FHWA and AASHTO collaborated
                          performance targets to measure progress in           4/12/2012     on a National Cooperative
                          improving the condition of deficient bridges.                      Highway Research Program
                                                                                             (NCHRP) project to develop
                                                                                             guidance for implementing
                                                                                             national level performance



Exhibit C. FHW A’s Actions To Address OIG Bridge Recommendations – as of Jul y 31, 2014
                                                                                                                     26




OIG Report       Number   Recommendation                                     Action Date   Status
                                                                                           measurements. FHWA also
                                                                                           completed a study on the use of
                                                                                           performance management
                                                                                           approaches and assessing
                                                                                           infrastructure health.

MH-2010-039      A03      Report regularly to internal and external          Open          FHWA plans to address this in the
                          stakeholders on the effectiveness of states’       Target Date   biennial Conditions and
                          efforts to improve the condition of the Nation’s   12/31/2014    Performance report.
                          deficient bridges based on the analysis of HBP
                          expenditure data and an evaluation of progress
                          made in achieving performance targets.

MH-2010-039      B01      Develop detailed criteria to help bridge           Closed        FHWA initiated a new bridge
                          engineers determine with greater consistency       3/25/2011     safety oversight initiative that
                          whether states demonstrate overall compliance                    includes a revised process to
                          with the NBIS.                                                   assess States’ compliance with
                                                                                           the NBIS using 23 metrics that
                                                                                           includes standard definitions and
                                                                                           thresholds for compliance.

MH-2010-039      B02      Develop a policy providing clear,                  Closed        FHWA initiated a new bridge
                          comprehensive, risk-based guidance that            3/25/2011     safety oversight initiative that
                          defines procedures Division Offices should                       includes a revised process to
                          follow to enforce compliance with the NBIS.                      assess States’ compliance with
                                                                                           the NBIS using 23 metrics that
                                                                                           includes a process for enforcing
                                                                                           compliance.

MH-2010-039      B03      Conduct a workforce assessment so that FHWA        Closed        FHWA completed a workforce
                          can identify strategic needs and target limited    3/25/2011     assessment and hired new staff
                          funding to higher priority staffing and training                 to provide technical assistance
                          needs in implementing data-driven, risk-based                    and support to the oversight of
                          bridge oversight.                                                the NBIS.




Exhibit C. FHW A’s Actions To Address OIG Bridge Recommendations – as of Jul y 31, 2014
                                                               27



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  David Pouliott                        Program Director

  Stephen Gruner                        Project Manager

  Cynthia M. Auburn                     Senior Analyst

  John Hannon                           Senior Analyst

  Aron Wedekind                         Engineer

  Seth Kaufman                          Senior Counsel

  Petra Swartzlander                    Statistician

  Andrea Nossaman                       Senior Writer-Editor

  Christina Lee                         Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                                           28



      APPENDIX. AGENCY COMMENTS

                                                                                     Memorandum
                 U.S. Department of
                 Transportation
                 Office of the Secretary
                 of Transportation


Subject:         INFORMATION: Management Comments to                                              Date:
                 OIG Draft Report on MAP-21 Bridge Provisions
                 and Prior Recommendations

From:            Brodi Fontenot
                 Assistant Secretary for Administration

Prepared         Gregory G. Nadeau
By:              Acting Administrator
                 Federal Highway Administration

To:              Thomas E. Yatsco
                 Assistant Inspector General for Surface Transportation Audits

      Safety on our Nation’s highways and bridges is the Federal Highway Administration’s
      (FHWA) first and foremost priority. As a result of FHWA’s oversight and coordination
      with its State and local partners, bridge conditions in the United States have consistently
      improved. Over the last decade, even as the total number of bridges in the Nation’s
      inventory increased from 594,100 to 607,751, the percentage of bridges classified as
      structurally deficient 1 dropped from 13.5 percent in 2004 to 10.5 percent in 2013.
      Similarly, the percentage of the deck area on bridges classified as structurally deficient
      has dropped from 10.1 percent in 2004 to 7.7 percent in 2013. Additionally, through its
      National Bridge Inspection Program, FHWA has been overwhelmingly successful for
      more than 30 years in eliminating bridge structural safety-related failures from occurring.

             •    The OIG draft report recognized that FHWA worked expeditiously to effectively
                  institute a more risk-based, data-driven approach to bridge oversight. The OIG
                  has closed 12 of the 16 recommendations issued in its previous bridge reports.
             •    The Agency distributed nearly 30 guidance documents and 360 individual Q&As,
                  mostly before October 1, 2012, when Moving Ahead for Progress in the 21st
                  Century Act (MAP-21) took effect. In addition, FHWA provided 26
                  informational outreach sessions prior to that date, informing about 10,000
                  participants about the new requirements or programmatic changes in MAP-21.

      1
          Structural deficient classification is based on a number of National Bridge Inventory condition and appraisal ratings.
           See paragraph 9 at http://www.fhwa.dot.gov/bridge/0650dsup.cfm. "Structurally deficient" does not mean unsafe.
           Unsafe bridges are closed.


      Appendix. Agency Comments
                                                                                          29


       However, the OIG draft report does not reflect the extent of FHWA’s actions
       regarding implementation of the MAP-21, including our extensive outreach with
       stakeholders.
   •   The FHWA’s validation process to identify errors in the National Bridge
       Inventory (NBI), which contains State-submitted data, is robust and effective,
       resulting in a 97 percent error reduction. The remaining NBI data errors do not
       have an impact on bridge safety. While it will continue to work with the States to
       eliminate those remaining errors, the FHWA will also continue to focus and direct
       its limited resources on addressing the greatest bridge safety risks and priorities.
   •   Of the 24 bridge-related actions, the OIG draft report identified two rulemakings
       behind schedule. The delays involving these two rules are the result of the
       Agency managing several very complex interrelated rulemakings. The first
       proposed performance management rule generated over 11,000 sets of comments
       received from the public that need to be reviewed and considered in the
       development of the final rule.
   •   States have decades of experience in managing the condition of their pavements
       and bridges. Although rulemaking is necessary to build performance
       requirements into the Federal-aid Highway Program, any delays in the issuance of
       final rules do not hinder States from continuing to take steps to manage the
       condition of their highway assets.
   •   For performance management, MAP-21 established a deadline for issuing a notice
       of proposed rulemaking. It also provides time periods for States and Metropolitan
       Planning Organizations to implement requirements as a function of the effective
       dates of final rules, but it does not include specific dates for the final rule or the
       implementation requirements.
   •   While MAP-21 is a two year funding bill, which expires at the end of fiscal year
       2014, it includes deadlines that go beyond its legislative timeframe – some
       deadlines as far out as 2017 and beyond. Many of FHWA’s new responsibilities
       under MAP-21 will continue for years to come, and our efforts to date have built a
       strong foundation to help us carry out these responsibilities.

Based upon our review of the draft report, we concur with and have completed action on
recommendations 1 and 5 on July 21 and June 5, 2014, respectively. We partially concur
with recommendation 2 to ensure compliance with the Administrative Procedures Act.
We agree to implement recommendations 3 and 4 and intend to complete action by
January 31, 2015.

We appreciate this opportunity to offer additional perspective on the OIG draft report.
Please contact Dr. Joseph Hartmann, Director of the FHWA Office of Bridges and
Structures at (202) 366-4599 with any questions or if the OIG would like to obtain
additional details about these comments.




Appendix. Agency Comments
